OCTOBER 31, 2008
  AUDIT REPORT




                                                      OFFICE OF AUDITS




 MORE STRINGENT ENTRANCE CRITERIA NEEDED FOR
         PROJECT LIFE-CYCLE REVIEWS




                                           OFFICE OF INSPECTOR GENERAL




                                                      National Aeronautics and
                                                          Space Administration




  REPORT NO. IG-09-004 (ASSIGNMENT NO. A-07-011-01)
Final report released by:



       signed
Evelyn R. Klemstine
Assistant Inspector General for Auditing




Acronyms

CxP          Constellation Program
DAC          Design Analysis Cycle
GAO          Government Accountability Office
NPR          NASA Procedural Requirements
PDR          Preliminary Design Review
POD          Point-Of-Departure
PNAR         Preliminary Non-Advocate Review
RID          Review Item Discrepancy
SDR          System Definition Review
SRB          Standing Review Board
SRR          System Requirements Review


                                                REPORT NO. IG-09-004
OCTOBER 31, 2008




                                                                             OVERVIEW

  MORE STRINGENT ENTRANCE CRITERIA NEEDED FOR PROJECT
                  LIFE-CYCLE REVIEWS

                                                                              The Issue

  In January 2004, the President announced a Vision for U.S. Space Exploration that
  directed NASA to retire the Space Shuttle by 2010 and develop new launch vehicles for
  missions beyond low Earth orbit. To achieve the Vision, one of NASA’s first challenges
  is the acquisition and development of the Orion Crew Exploration Vehicle (Orion). In
  September 2006, NASA awarded a $3.9 billion contract to Lockheed Martin Corporation
  (Lockheed) for the design, development, testing, and evaluation of Orion with a period of
  performance through December 2011. In April 2007, the Agency and Lockheed
  negotiated a change to the contract effectively increasing the contract value to
  $4.3 billion and extending the performance period to October 2013.

  Since the 1980s, NASA has had difficulty bringing a number of projects to completion
  including the building of a next-generation spacecraft. The Agency spent an estimated
  $4.8 billion and years of effort on never completed projects such as the National Aero-
  Space Plane, X-33, X-34, Space Launch Initiative, and the International Space Station
  Propulsion Module. To improve project outcomes, the Government Accountability
  Office (GAO) issued several reports recommending that NASA develop sound
  acquisition concepts to capture specific product knowledge at key junctures in product
  development prior to proceeding with the project. As a result, NASA revised its program
  and project management guidance to require program and project “life cycles” with
  life-cycle reviews at key decision points.

  We initiated this audit because of the overall importance of the Orion Project and because
  it is one of the first space flight projects to implement the revised guidance. We
  evaluated NASA’s management of the Orion acquisition during the initial life-cycle
  phase established by NASA Procedural Requirements (NPR) 7120.5D, “NASA Space
  Flight Program and Project Management Requirements,” March 6, 2007, and the life-
  cycle reviews that occur during the initial life-cycle phase, “Concept and Technology
  Development” (Phase A).

                                                                                  Results

  The Orion Project Office (Project Office) conducted a Phase A life-cycle review with a
  vehicle configuration (606 vehicle) that was not at the proper maturity level to proceed to
  Phase B. Specifically, a required engineering design analysis conducted prior to the


REPORT NO. IG-09-004
                                                                                         OVERVIEW



     life-cycle review disclosed that the vehicle configuration required a reduction in weight,
     power, and instrumentation. However, instead of delaying the Phase A life-cycle review
     until the correct vehicle configuration (607 vehicle) could be reviewed, the Project Office
     proceeded with a nonconforming vehicle. As a result, a significant portion of the vehicle
     configuration that eventually did proceed to Phase B did not receive the benefit of a
     Phase A life-cycle review, nor was it completely evaluated for compliance with
     requirements.

     NASA policy requires space flight projects to conduct life-cycle reviews during each
     phase of the project’s life cycle. These reviews are considered essential elements of
     conducting, managing, evaluating, and approving space flight projects. The Project
     Office conducted each of the required Phase A life-cycle reviews for projects—the
     System Requirements Review (SRR) and the System Definition Review (SDR)—in
     accordance with NPR 7120.5D. The Orion Standing Review Board (SRB) conducted an
     independent life-cycle review—the Preliminary Non-Advocate Review (PNAR)—which
     provides the Agency an expert assessment of the progress against the project baseline.

     As part of Orion’s systems engineering process, the Project Office performs analysis
     cycle reviews during and after each life-cycle review. Included in Phase A is a design
     analysis cycle (DAC) that integrates the analysis required to support the SDR and
     demonstrates that the proposed system design and operational concept meet the mission
     goals and objectives. The pre-SDR DAC analysis disclosed that the 606 vehicle
     configuration required a redesign to reduce weight, power, and instrumentation to fulfill
     the mission. In addition, the analysis showed that because the vehicle did not meet the
     mass and weight requirements, the 606 vehicle would not be at the maturity level to
     proceed to Phase B, “Preliminary Design and Technology Completion.”

     NPR 7123.1A, “NASA Systems Engineering Processes and Requirements,” March 26,
     2007, establishes the entrance criteria that each project needs to fulfill and the success
     criteria that the project must successfully demonstrate for each life-cycle review.
     NPR 7123.1A entrance criteria do not require known changes from engineering design
     analysis be incorporated into the relevant technical baseline products prior to holding the
     life-cycle review. Therefore, the Project Office could hold the SDR, on schedule, on the
     nonconforming vehicle instead of delaying the SDR until meeting the Constellation
     Program (CxP) mass and weight requirements. The Project Office entered the SDR
     process with the nonconforming vehicle configuration because it initiated a parallel
     “point-of-departure” (POD) activity, which it believed would ultimately satisfy
     NPR 7120.5D requirements with the least expenditure of Agency resources.

     By conducting the SDR with the 606 vehicle configuration and declaring the SDR a
     success, the Project Office (and the SRB) communicated the impression that the
     606 vehicle was at the maturity level needed to proceed to Phase B of the project’s life
     cycle, when it was not. In addition, the Agency was obligated to pay Lockheed its award
     fee of $41.4 million, which was based, in part, on the SDR being held by August 31,
     2007. The Project Office was able to conduct the review with the nonconforming vehicle


ii                                                                          REPORT NO. IG-09-004
OVERVIEW



  because NASA’s life-cycle reviews’ entrance criteria do not require that the project
  incorporate the results from engineering analysis cycles conducted prior to the life-cycle
  review.

  Without a fully successful SDR, the acquisition methodology is materially undermined
  and the Agency cannot be assured that life-cycle milestones vital to success are achieved.
  NASA needs to ensure that the vehicle configuration and requirements are at the proper
  maturity level prior to starting and completing future life-cycle phases. By not doing so,
  there is increased risk that new development is conducted prematurely, with concomitant
  risk of costly rework and schedule slips in managing the multibillion dollar Orion
  Project.

  Management Action

  Our September 9, 2008, draft of this report recommended that NASA revise
  NPR 7123.1A entrance criteria for internal life-cycle reviews to require that the technical
  products reviewed incorporate into the technical baseline known requirement changes
  resulting from engineering analysis cycle assessments. In addition, to ensure that the
  607 vehicle configuration was scrutinized at a minimum of the Phase A SDR level, we
  recommended that the Agency evaluate the vehicle configuration to determine the impact
  of any missed work and, if material, perform an SDR on affected systems. Finally, to
  ensure that the contractor does not prematurely receive award fees, we recommended the
  Agency ensure the contractor receive award fees based on the maturity of the relevant
  technical baseline rather than on holding a scheduled milestone.

  Management’s Comments and OIG Response. In response to a draft of this report
  (see Appendix G, “Management Comments”), the Chief Engineer did not concur with
  our recommendation to revise NPR 7123.1A entrance criteria, stating that the current
  policy is effective as written. The Chief Engineer also stated that there is no technical
  baseline of the design at this point in the life cycle. Trade studies and technology
  maturation are still occurring such that by the Preliminary Design Review (PDR), a
  preliminary design is in place that meets all system requirements.

  We consider management’s comment to this recommendation to be nonresponsive. We
  disagree that the current policy is effective. The policy as written provides for what
  amounts to a system status review rather than a life-cycle review to examine whether
  NASA had achieved a milestone in project development. While system status is useful,
  it is not what we believe is intended by the life-cycle review process, which focuses on
  technical maturity as opposed to calendar milestones. If the technical maturity
  established pursuant to criteria does not exist, a life-cycle review should not be declared
  a “success.” Material deficiencies should be addressed and resubmitted for review.

  The policy as written allowed the Orion Project Office to hold the SDR on a
  nonconforming vehicle configuration that did not meet known requirements nor was the


REPORT NO. IG-09-004                                                                            iii
                                                                                        OVERVIEW



     vehicle able to meet the review’s success criteria. In addition, although there may not be
     a technical baseline for the actual design available for review at the SDR, NASA’s
     guidance is clear that the Project is developing the technical baseline during this life-
     cycle phase. We commend the Project Office for delaying its PDR on two different
     occasions (and its consideration of a third delay), to ensure that the relevant technical
     baseline is reviewed. We believe these delays are consistent with making the PDR a true
     life-cycle review. However, without a revision to NPR 7123.1A requiring review of the
     relevant technical baseline at each life-cycle review, instances might again arise when
     reviews are performed on a premature configuration in compliance with the entrance
     criteria, yet be unable to meet known technical requirements or the success criteria. We
     request that the Chief Engineer reconsider his response to this recommendation and
     provide additional comments by November 26, 2008.

     The Associate Administrator for Exploration Systems Mission Directorate did not concur
     with our recommendation to evaluate the Phase B vehicle configuration to assure that it
     was scrutinized at a minimum of the SDR level, stating that no additional review is
     warranted. However, the Associate Administrator did concur with our recommendation
     that the contractor receives award fees based on the maturity of the relevant technical
     baseline, stating that NASA had already acted accordingly for the first Orion award fee
     period covered during the audit.

     Although the Associate Administrator for Exploration Systems Mission Directorate did
     not concur with our recommendation to evaluate the Phase B vehicle configuration, the
     Agency’s actions are responsive to the intent of our recommendation. Technical subject
     matter experts and Agency stakeholders eventually evaluated the 607 vehicle
     configuration, albeit outside of the formal SDR process. We believe the Agency’s delay
     of the Phase B PDR because the known technical baseline changes are not at the proper
     maturity level is consistent with our recommendation. Likewise, although we disagree
     with the Associate Administrator’s assertion that NASA acted in accordance with the
     recommendation during award fee period one, Agency actions taken during award fee
     period two are in accordance with the recommendation. NASA adjusted the period two
     award fee milestone to coincide with the delayed PDR and by so doing, NASA
     demonstrated that the Orion Project acted in accordance with the intent of our
     recommendation. We consider these recommendations resolved and closed.




iv                                                                         REPORT NO. IG-09-004
OCTOBER 31, 2008




                                                            CONTENTS

  INTRODUCTION
      Background __________________________________________ 1
      Objectives ___________________________________________ 3

  RESULTS
      Orion SDR Conducted with a Nonconforming Vehicle __________ 4

  APPENDIX A
      Scope and Methodology _______________________________ 19
      Review of Internal Controls _____________________________ 21
      Prior Coverage_______________________________________ 21

  APPENDIX B
      Life Cycle of a NASA Space Flight Project __________________ 24

  APPENDIX C
      System Requirements Review Entrance/Success Criteria ______ 25

  APPENDIX D
      System Definition Review Entrance/Success Criteria _________ 26

  APPENDIX E
      Orion’s Analysis Cycles Performed Between Life-Cycle Reviews _ 27

  APPENDIX F
      Preliminary Design Review Definition Activity Memorandum ___ 28

  APPENDIX G
      Management Comments _______________________________ 33

  APPENDIX H
      Report Distribution ___________________________________ 37


REPORT NO. IG-09-004
OCTOBER 31, 2008




                                                                                INTRODUCTION


Background

  Orion is one of six projects under the Constellation Program (CxP).1 CxP is managed
  from the Johnson Space Center (Johnson) and is responsible for designing and
  developing the next generation of NASA space vehicles, which will send human
  explorers back to the moon and onward to Mars and other destinations in the solar
  system. CxP scheduled the new space vehicles for three unmanned test flights in
  April 2009, September 2012, and March 2013, with the first manned flight about March
  2015. NASA plans a manned flight to the moon before 2020.

  Orion Crew Exploration Vehicle (CEV). Orion is the crew capsule for the next
  generation of space vehicles and will be used to transport crew and cargo from Earth to
  space and return. As shown in Figure 1, the Orion Project includes four elements: (1) a
  launch abort system (emergency escape during launch), (2) a crew module (crew and
  cargo transport), (3) a service module (propulsion, electrical power, and fluids storage),
  and (4) a spacecraft adapter (structural transition to CEV launch vehicle).

  Orion will be capable of transporting up to six crewmembers to and from the
  International Space Station, four crewmembers for lunar missions, and pressurized cargo
  to and from the International Space Station without a crew. Orion will also support crew
  transfers for future Mars missions.




  1
      The other five CxP projects are the Crew and Cargo Launch Vehicles (Ares I and Ares V), Ground
      Operations, Mission Operations, Extra-Vehicular Activity Systems, and Lunar Lander projects.



REPORT NO. IG-09-004                                                                                   1
                                                                                     INTRODUCTION



    Figure 1. Orion Project Elements




                                   Source: Crew Exploration Vehicle Project Plan, December 18, 2006


    Orion Project Management. The development of Orion is a joint effort involving every
    NASA Center. While Johnson is leading the development of Orion’s crew module,
    Langley Research Center is leading the development of the Orion launch abort system,
    and Glenn Research Center is leading development of the Orion service module and
    spacecraft adapter. Kennedy Space Center will lead the pre-flight processing and launch
    operations for Orion. Lockheed is NASA’s prime contractor for the design,
    development, testing, and construction of Orion.

    Project Management Guidance. NASA’s primary project management guidance for
    space flight projects is contained in NPR 7120.5D, “NASA Space Flight Program and
    Project Management Requirements,” March 6, 2007, and NPR 7123.1A, “NASA
    Systems Engineering Processes and Requirements,” March 26, 2007. NASA revised
    NPR 7120.5D and NPR 7123.1A in response to multiple GAO reports that recommended
    NASA change its approach to program and project management, specifically as it related
    to the acquisition process. GAO stated that NASA’s acquisition framework did not
    provide the information needed to make major investment decisions, which contributed
    to NASA’s difficulties in meeting cost, schedule, and performance objectives for its



2                                                                           REPORT NO. IG-09-004
INTRODUCTION



  programs and projects.2 The revised NPR 7120.5D introduced the concept of program
  and project “life cycles” and defined the various key decision points and life-cycle
  reviews to manage each space flight program or project (see Appendix B for a space
  flight project’s life cycle). The revised NPR 7123.1A established entrance and success
  criteria for each of the life-cycle reviews. The Orion Project was one of NASA’s first
  space flight projects to implement that new guidance.


Objectives

  The overall objective of this audit was to evaluate the management of the Orion
  acquisition. Because the acquisition was in the “Concept and Technology Development”
  phase of the project life cycle (Phase A), we reviewed and evaluated management’s
  efforts to ready the project for the “Preliminary Design and Technology Completion”
  phase of the project life cycle (Phase B). We specifically focused on the life-cycle
  reviews conducted during Phase A—System Requirements Review (SRR), System
  Definition Review (SDR), and Preliminary Non-Advocate Review (PNAR). We also
  reviewed internal controls as they related to the overall objective. See Appendix A for
  details of the audit’s scope and methodology, our review of internal controls, and a list of
  prior coverage.




  2
      Government Accountability Office, “NASA-Implementing a Knowledge-Based Acquisition Framework
      Could Lead to Better Investment Decisions and Project Outcomes” (GAO-06-218, December 21, 2005).



REPORT NO. IG-09-004                                                                                     3
                                                                                         RESULTS




                                             ORION SDR CONDUCTED WITH A
                                                 NONCONFORMING VEHICLE

           Although the Orion Project conducted each of the Phase A life-cycle reviews
           required by NPR 7120.5D (SRR, SDR, and PNAR), the SDR was conducted with a
           vehicle configuration (606 vehicle) that did not meet mass and weight requirements
           levied by the CxP. An engineering design analysis conducted to refine the
           spacecraft for the SDR determined that the 606 vehicle configuration required a
           reduction in weight, power, and instrumentation before it could meet CxP
           requirements. Instead of delaying the SDR until a vehicle redesign was complete
           (607 vehicle), the Orion Project elected to hold the SDR with the nonconforming
           606 vehicle and on August 30, 2007, reported in the SDR Board minutes that the
           SDR had been “successful.” The Project Office was able to conduct the SDR with a
           nonconforming vehicle because NASA guidance does not require that results of
           engineering design analyses be considered when determining whether a project is
           ready for its next life-cycle review. By conducting the SDR and declaring it a
           success, the Project Office communicated the impression that the vehicle was at the
           maturity level needed to proceed to Phase B of the project’s life cycle, when it was
           not. In addition, the Agency was obligated to pay the prime contractor its award fee
           of $41.4 million, which was based, in part, on the contractor holding the SDR by
           August 31, 2007.


Life-Cycle Review Process

    NPR 7120.5D requires NASA space flight projects to conduct life-cycle reviews during
    each phase of the project’s life cycle. The reviews are considered essential elements of
    conducting, managing, evaluating, and approving space flight projects. Generally, a
    project first conducts an “internal review,” wherein the project management solidifies
    their plans, technical approaches, and programmatic commitments. During the internal
    review, functional area experts from across the Agency evaluate the project’s technical
    documentation for noncompliance or conflicts with requirements. If a discrepancy is
    identified, the functional area expert will initiate and submit a review item discrepancy
    (RID).

    RIDs can be initiated against incorrect, incomplete, or missing requirements or other
    areas in which the technical documentation is incomplete or in error. The RIDs go
    through a series of reviews whereby selected technical personnel further screen the RIDs
    and determine whether to recommend the RID for approval, approval with modification,
    dismissal, or merger with another RID. Approved RIDs are forwarded to a review panel
    and a pre-board; they ensure that the project’s technical documents are revised in
    accordance with the RIDs and that the RIDs are properly dispositioned and closed.



4                                                                         REPORT NO. IG-09-004
RESULTS



  Lastly, the internal project review board assesses the RID dispositions, schedules of
  forwarded RID work, and recommendations and closure plans for any outstanding RIDs.
  While all RIDs must be dispositioned prior to proceeding to the next life-cycle review,
  the RIDs do not have to be closed if the project has a plan to address the discrepancy. If
  a RID is dismissed during the review process, the initiator is notified and may issue a
  reclama directly to the internal project review board for consideration.

  Once the internal review is complete, the project undergoes an independent review by the
  project’s Standing Review Board (SRB). NPR 7120.5D requires that an SRB be
  established for each space flight project. The SRB reports on the adequacy and
  credibility of the project’s technical and management approach, schedule, resources, cost,
  and risk; the project’s compliance with Agency management and systems engineering
  guidance; and the project’s readiness to proceed to the next life-cycle phase. SRB
  members are chosen based on their management, technical, and safety and mission
  assurance expertise; their objectivity; and their ability to make a broad assessment of
  space flight projects. To ensure the objectivity of the SRB, NPR 7120.5D requires that
  the members be independent of the project under review; that is, none of the members
  should have a stake in the outcome of any of the life-cycle reviews or in the project
  itself.3 Because the SRB is solely an advisory board, NASA management is not required
  to act on the SRB’s findings and recommendations; however, NASA management must
  consider the SRB report when deciding whether the project should proceed to the next
  life-cycle phase.


Phase A Life-Cycle Reviews

  During Phase A of a space flight project’s life cycle, the project undergoes three life-
  cycle reviews—SRR, SDR, and PNAR. The results from those reviews are presented to
  the decision authority who determines the readiness of the project to progress to Phase B4
  of the life cycle.

  SRR. The SRR is the project’s first Phase A life-cycle review in which the functional
  and performance requirements and the preliminary project plan are examined to ensure
  that the requirements and selected concept will satisfy the mission. Prior to initiating the
  SRR, a project needs to fulfill the entrance criteria listed in NPR 7123.1A, Appendix G,
  Table G-4, “SRR Entrance and Success Criteria” (see Appendix C). Those entrance



  3
      In a previously issued NASA OIG report (IG-08-018, “Final Memorandum on the Standing Review
      Board for the Orion Crew Exploration Vehicle Project,” April 28, 2008), we found that not all Orion
      SRB members met the independence requirements as defined in NPR 7120.5D. Based on our finding, the
      Agency is revising its SRB guidance.
  4
      Phase B is the second phase of a project’s life cycle and culminates with the preliminary design review,
      which is the first life-cycle review in the Phase B life-cycle and provides information for Key Decision
      Point C.



REPORT NO. IG-09-004                                                                                             5
                                                                                                      RESULTS



    criteria require that the project successfully complete a Mission Concept Review,5
    prepare a preliminary SRR agenda, and define success criteria by which the project will
    be measured. The project must also have a number of technical products available for the
    functional area experts and the SRB to review including the system requirements
    documents, the baselined systems engineering management plan, the risk management
    plan, and the system safety and mission assurance plan. At the conclusion of the SRR,
    the project must demonstrate to the SRR internal review board that it has met the
    SRR success criteria listed in NPR 7123.1A, to include development of a sound process
    for allocating and controlling requirements and a method of validating those
    requirements. The project must also have identified and technically assessed its major
    risks and developed mitigation strategies to address those risks.

    SDR. The SDR is the project’s second Phase A life-cycle review in which the proposed
    requirements, the mission/system architecture, and the flow down of requirements to all
    functional elements are reviewed. As with the SRR, the project needs to fulfill the SDR
    entrance criteria before proceeding with the review (see Appendix D). Those entrance
    criteria require that the project have successfully completed its SRR, prepared a
    preliminary SDR agenda, and have certain technical products, such as the preliminary
    functional baseline (with supporting trade-off analyses and data), available for the
    functional area experts and SRB review. In addition, any updates to the technical
    products initially reviewed during the SRR are resubmitted for the SDR. At the
    conclusion of the SDR, the project must demonstrate to the SDR internal review board
    that it has met the SDR success criteria. Included in NPR 7123.1A’s list of success
    criteria is an allocation of all technical requirements, development of a credible technical
    approach that is responsive to the identified requirements, and the existence of a process
    to manage the identified and technically assessed development, mission, and safety risks.
    The project must also demonstrate that the requirements, design approaches, and
    conceptual design can fulfill the mission needs consistent with available resources (cost,
    schedule, mass, and power).

    PNAR. The PNAR is the Phase A independent life-cycle review and is conducted to
    specifically provide NASA management with an independent assessment of the project’s
    readiness to proceed to Phase B of its life cycle. The PNAR is conducted solely by the
    SRB and is designed to be held in conjunction with the project’s SDR. The PNAR is
    considered complete when the SRB out-briefs the decision authority.


SRR Entrance and Success Criteria Met

    The Orion 606 vehicle configuration met the SRR entrance and success criteria
    established in NPR 7123.1A. As required by the NPR’s entrance criteria, the project
    documented its SRR agenda, defined success criteria to measure the Orion’s progress,

    5
        The Mission Concept Review is conducted during Pre-Phase A to affirm the mission needs, examine the
        proposed objectives, and examine the concept for meeting those objectives.



6                                                                                     REPORT NO. IG-09-004
RESULTS



  and provided the required technical products to the functional area experts and the SRB
  for review. Although the project did not conduct a separate Mission Concept Review as
  required by the SRR entrance criteria, the project was able to justify that the Mission
  Concept Review objectives were accomplished as part of the Exploration Systems
  Architecture Study,6 which preceded the Orion Project start.

  The Orion SRR was initiated in January 2007 and from January 23, 2007, through
  February 26, 2007, the functional area experts evaluated the SRR technical
  documentation for assurance that requirements were necessary, achievable, verifiable,
  clear, and consistent. Deficiencies resulted in RIDs, which were processed through the
  formal RID disposition process. Ultimately, the Orion Project’s internal SRR Board
  reviewed a summary of the RID dispositions along with its review of project requirements,
  technical status, design compliance, closure criteria, schedules of forwarded work, and
  recommendations and closure plans for open items. Based on that review, the SRR Board
  concluded on March 1, 2007, that the Orion Project had met all the requirements needed
  for a successful SRR to include meeting the SRR success criteria. In addition, the SRB
  also completed its independent review, concluded that the SRR was complete, and
  recommended the Project proceed to SDR with the 606 vehicle configuration.

  Based on our analysis of the SRR entrance and success criteria and evaluation of the
  Orion Project’s support for meeting those criteria, we agreed with management’s
  determination that the Project successfully completed its SRR and that the 606 vehicle
  configuration was at the maturity level needed to proceed to the SDR. Our evaluation
  included reviewing documentation to support that the Exploration Systems Architecture
  Study accomplished the intent of the Orion Mission Concept Review, verifying that key
  driving requirements were identified, as prepared, and verifying that traceability
  functions were performed on those requirements. The Project Office provided us with
  documentation illustrating how CxP requirements trace to the subsystem level and we
  observed an example of the requirements flow down. We verified that the system and
  subsystem conceptual design approach and operational concepts existed and were
  consistent with the Orion’s system requirement set. In addition, we verified that the
  Project had a Risk Management Plan, identified major risks, and defined mitigation
  strategies. We evaluated the Orion Project’s RID process and the Project was able to
  show evidentiary matter that all RIDs and action items were dispositioned. We attended
  the SRR Board meeting on March 1, 2007, and reviewed the Board minutes for decisions
  made and forward action plans. We also reviewed the SRB’s issued report to verify that
  the SRB concluded that Orion should proceed to the SDR.




  6
      The Exploration Systems Architecture Study was chartered by the NASA Administrator to complete an
      assessment of the top-level Crew Exploration Vehicle requirements.



REPORT NO. IG-09-004                                                                                      7
                                                                                                       RESULTS



SDR Success Criteria Not Met

    Although the Orion 606 vehicle configuration met the SDR entrance criteria, it did not
    meet the SDR success criteria because the 606 vehicle configuration used during the
    SDR did not meet known mass and weight requirements levied by the CxP.

    At the completion of the SRR, NASA management and the SRB agreed that the
    606 vehicle configuration was adequate to proceed to SDR. In preparation for the SDR,
    the Project Office initiated a “pre-SDR DAC” on the 606 vehicle configuration. The
    DAC is required by Orion’s System Engineering Management Plan7 and supports the
    SDR by demonstrating that the proposed system design and operational concept meets
    the mission goals and objectives. During the DAC, multiple project office organizations
    analyzed the system requirements, risks, system concept and architecture, trades
    assessments, and cost and schedule. (See Appendix E for the summary of all Orion’s
    planned analysis cycles during its life cycle.) The Project Office completed the DAC in
    June 2007 and concluded that the SRR 606 vehicle configuration required a
    reconfiguration to reduce weight, power, and instrumentation to meet CxP requirements
    and proceed to Phase B. Known CxP requirements included a vehicle with a target
    payload mass of 50,250 pounds (5,522 pounds less than the 606 vehicle’s effective
    payload mass of 55,772 pounds) and gross lift-off target weight of 66,504 pounds
    (4,387 pounds less than the 606 vehicle’s gross liftoff weight of 70,891 pounds).

    To address the mass and weight deficiencies disclosed during the DAC, the Project
    Office initiated a reconfiguration activity denoted as the POD activity. On June 8, 2007,8
    the Orion Project Manager and the Lockheed Orion Program Manager signed
    memorandum ZV-07-005 outlining that a Phase B vehicle reconfiguration activity would
    be performed simultaneously with the SDR. The memorandum stated that the vehicle
    configuration resulting from the POD activity would be the 607 vehicle that would
    proceed to Phase B. (See Appendix F for a copy of the complete memorandum.) To
    accomplish the POD activity, the Project Office examined the existing 606 vehicle and
    “stripped back” (took out) all components and functions requirements that were not vital
    to the lunar mission. The stripped back vehicle was denoted as the “Zero Based Vehicle”
    and the components and functions removed were maintained in a database that was the
    principal repository for identifying any removed items. Each item maintained in the
    database was prioritized to meet safety, robustness, and mission objectives and the
    weight, power, and thermal margins. After the prioritization, components and functions
    were then added back to the Zero Based Vehicle as allowed by the mass and weight
    margins. The Project Office had two rounds of “buy backs” where components and
    functions were added back to the vehicle. The first round of buy backs focused on safety,
    while the second round of buy backs focused on the remaining components and functions

    7
        CxP 72088, “Crew Exploration Vehicle Systems Engineering Management Plan,” November 8, 2006.
    8
        The Project Office erroneously dated the memo June 8, 2006. We confirmed with the Project Office that
        the date should be June 8, 2007.



8                                                                                      REPORT NO. IG-09-004
RESULTS



  in the database. The Orion Vehicle Integration Office and Lockheed Systems
  Engineering and Integration Team led the effort with the Orion Vehicle Engineering
  Integrated Working Group performing the day-to-day activities. The Orion Vehicle
  Engineering Integrated Working Group performed the POD activity to establish
  requirements for the 607 vehicle in parallel with the Project Office’s SDR of the
  606 vehicle.

  Consistent with the decision to hold the POD and SDR simultaneously, the Project Office
  initiated the SDR on July 11, 2007, with the 606 vehicle configuration, which did not
  meet known CxP mass and weight requirements and, therefore, could not meet the SDR
  success criteria. Specifically, the 606 vehicle did not meet the SDR success criteria that
  states “[t]he requirements, design approaches, and conceptual design will fulfill the
  mission needs consistent with the available resources (cost, schedule, mass, and power).”
  In addition, because the 606 vehicle’s payload mass and lift-off weight could not meet
  the mission needs, we do not believe that Orion met the success criteria that “[t]he
  technical approach is credible and responsive to the identified requirements.”
  Furthermore, until the POD activity was complete, the success criteria “[t]he tradeoffs are
  completed, and those planned for Phase B adequately address the option space” could not
  be met.

  The Project Office conducted the SDR in accordance with NPR 7120.5D and met the
  NPR 7123.1A entrance criteria as written. The Project Office met NPR 7123.1A’s
  entrance criteria by demonstrating the successful completion of the SRR, providing a
  preliminary SDR agenda, providing the SDR success criteria, and providing the technical
  documents for review to the functional area experts and the SRB. According to the
  Assistant Orion Project Manager for Integration, the Project Office believed that its
  strategy of performing the SDR parallel with the POD activity would ultimately address
  NPR 7120.5D requirements with the least expenditure of Agency resources.

  At the conclusion of the SDR, the SDR Board documented in the Board minutes that the
  606 vehicle design did not meet the mass requirements and trade studies could not be
  completed because the POD activity was ongoing. In addition, the Board minutes
  identified that although the SDR process allowed for a thorough review of the
  606 vehicle, the POD activity (607 vehicle) would have relatively little review time and
  there was a concern about the tight schedule. On August 30, 2007, the SDR Board
  declared the SDR successful by asserting that the SDR was a snapshot review to
  understand the issues and the Project had plans, such as the POD activity, to address
  those issues.

  To evaluate whether the Project Office conducted the SDR in accordance with
  NPR 7123.1A, we verified how the entrance criteria were met. As discussed earlier, the
  Project Office successfully completed the SRR and dispositioned all the SRR RIDs and
  action items resulting from the SRR. The SDR Process Plan9 documented the purpose of
  9
      CxP 72107, “Constellation Program Crew Exploration Vehicle System Definition Review Process Plan,”
      June 22, 2007.


REPORT NO. IG-09-004                                                                                       9
                                                                                                             RESULTS



     the SDR as well as the entrance and success criteria the Project would meet. We
     attended the SDR Kick-off meeting and observed several pre-board meetings. In
     addition, the required technical products were made available for the functional area
     experts and the SRB to review. We concluded that the Project Office’s documented
     entrance criteria were met. However, the entrance criteria as written failed to incorporate
     known technical baseline changes prior to the life-cycle review. The POD activity was
     based on known mass and weight issues that could result in integrated design impacts
     across all subsystems addressing Orion’s mass and power and result in reassessments of
     reliability, operability, safety, and cost.

     Based on our review of the parallel POD activity, attendance at the board meetings, and
     the SDR Board minutes, we believe that the 606 vehicle did not meet the success criteria
     because the design did not fulfill the known mission needs consistent with the available
     resources. The vehicle did not meet the mass and weight criteria, thus the technical
     approach was not responsive to identified CxP requirements and the tradeoffs (POD
     activity) were not complete. As a result, the SRB was not able to conduct its PNAR in
     conjunction with the SDR.


PNAR Not Conducted in Conjunction with SDR

     The SRB declined to conduct the PNAR in conjunction with the SDR because the
     606 vehicle reviewed at the SDR did not meet requirements. The SRB requested that the
     Project Office provide them a briefing after the POD activity established the correct
     vehicle configuration (607 vehicle), which was scheduled for November 2007. During a
     September 27, 2007, interview with our office, the SRB Chairman stated that the vehicle
     configuration that went through the SDR (606 vehicle) was irrelevant. The SRB was
     subsequently briefed on the 607 vehicle configuration in December 2007 and was able to
     review the Phase B vehicle. Based on the December 2007 briefing, the SRB issued its
     PNAR report10 on January 23, 2008, which stated that the Project faced significant
     technical issues11 that would require major efforts to resolve before a valid Preliminary
     Design Review (PDR) could be conducted. The SRB report also noted that the schedule
     was not achievable within the defined budget and that the assessed cost was significantly
     higher than the currently defined budget. However, despite the issues and concerns
     documented in the PNAR report, the SRB recommended to the decision authority that the
     Project should proceed, with the 607 vehicle configuration, to its PDR in Phase B. The
     SRB out-briefed the decision authority on April 29, 2008, with the results as written in
     the PNAR report.



     10
          Orion Project Standing Review Board “Assessment Report System Definition Review (SDR) &
          Preliminary Program Approval Review (PPAR),” January 23, 2008
     11
          The technical issues include mass-margin threats, design impact threats from Ares I thrust oscillations,
          and an adequate definition for loss of crew and loss of mission.



10                                                                                          REPORT NO. IG-09-004
RESULTS



Entrance Criteria Do Not Require Incorporation of Design Analysis
  Results

  NASA’s entrance criteria do not require that projects incorporate results of engineering
  design analyses (the DAC in this case) before initiating the life-cycle review, which
  allowed the Project Office to conduct the SDR with the nonconforming 606 vehicle. The
  entrance criteria do require that projects respond to all prior life-cycle review’s request
  for actions and RIDs (the SRR in this case). However, the entrance criteria do not
  require that known changes to the technical baseline resulting from the required
  engineering analysis cycles performed between life-cycle reviews be incorporated into
  project technical documents. If the entrance criteria had considered the design analysis
  results, the SDR would not have concluded on August 30, 2007, but would have been
  delayed until the POD activity assessment was complete. NPR 7123.1A states that an
  important point of a life-cycle review is that “. . . reviews are event based and occur when
  the entrance criteria for the applicable review as specified in Appendix G are satisfied.
  They occur based on maturity of the relevant technical baseline as opposed to calendar
  milestones . . ..” Although NPR 7123.1A provides entrance criteria for a life-cycle
  review to begin, the criteria do not address the maturity of the relevant technical baseline.
  The entrance criteria state that the previous life-cycle review (SRR in this case) must be
  complete; however, the criteria do not require that known changes in the technical
  baseline be incorporated prior to starting the review. The Project Office was able to hold
  the SDR on the nonconforming 606 vehicle, on schedule, because NPR 7123.1A entrance
  criteria do not incorporate the results of engineering design analyses even though the
  project is required to conduct the design analysis prior to the life-cycle review. The
  Project Office proceeded with the SDR instead of adjusting the SDR milestone even
  though it became apparent in June 2007 that the appropriate technical baseline
  (607 vehicle) would not be ready for the scheduled SDR.


“Successful” SDR Implied Phase B Maturity Level

  The Orion Project Office did not fully meet the criteria to declare the SDR successful
  because the 606 vehicle configuration did not fulfill the mission needs. The 606 vehicle
  required a reconfiguration to reduce weight, power, and instrumentation in order to meet
  requirements before proceeding to Phase B. By conducting the SDR and declaring it a
  success, the Project Office communicated the impression that the SDR vehicle was at the
  maturity level needed to proceed to Phase B of its life cycle, when it was not. As stated
  in NPR 7120.5D, “NASA places significant emphasis on project formulation because
  adequate preparation of project concepts and plans is vital to success.” During
  formulation (Phase A and Phase B), project staff develops and defines the requirements,
  cost, and schedule and designs a plan for the project to proceed to the implementation
  phases.12 NPR 7120.5D also states that project reviews “are essential elements of
  12
       Implementation phases are Phase C, Final Design and Fabrication; Phase D, System Assembly,
       Integration and Test, and Launch; Phase E, Operations and Sustainment; and Phase F, Closeout.


REPORT NO. IG-09-004                                                                                   11
                                                                                                       RESULTS



     conducting, managing, evaluating, and approving space flight programs/projects.”
     Additionally, as part of the required NPR 7123.1A engineering process, Orion’s
     documented engineering process states that any changes to the requirements that
     occurred since the SRR will be verified at the SDR.13 The purpose of the SDR is
     essentially negated if a known incorrect or irrelevant design is reviewed. Without a
     proper SDR, the Agency has limited assurance that project concepts and plans vital to
     success are achievable.

     Since the 607 vehicle configuration that proceeded to Phase B was not reviewed by all
     functional area experts during the SDR, the redesigned vehicle did not go through the
     rigorous RID process to determine whether the technical data was in conflict with
     requirements. As such, the functional area experts did not validate a significant portion
     of the redesigned vehicle. A vehicle design that does not benefit from the rigors of the
     full SDR review process could lead to extensive rework, schedule slippage, and increased
     cost because an unacceptable design was allowed to proceed. For example, on the
     International Space Station’s Propulsion Module Project, NASA did not validate
     requirements from the SRR before beginning the PDR. As a result, the Agency spent
     $97 million and 19 months of effort before it determined that the design was
     unacceptable.14 The Orion SDR process evaluated the 606 vehicle and implied it was at
     the maturity level to proceed to Phase B; however, the vehicle configuration that will
     proceed to Phase B is the POD 607 vehicle. Although the 607 vehicle configuration
     received constant review and analysis from the Project Office and CxP, and the SRB was
     ultimately able to perform the independent PNAR (albeit about 4 months later), the
     607 vehicle configuration did not obtain the full SDR environment review process as
     required by NPR 7120.5D. The Project Office should have delayed the SDR until the
     607 vehicle configuration was ready because they knew the 606 vehicle configuration
     was not the vehicle going to Phase B.


Award Fee Paid Prior to SDR Milestone Completion

     NASA awarded the prime contractor its award fee of $41.4 million15 because, in part, the
     contractor held the SDR by August 31, 2007, and the Project Office considered the SDR
     successful. NASA’s contract with Lockheed is performance milestone driven, which
     means that interim award fee periods and provisional payments are based on the
     contractor’s successful completion of milestones within the agreed-to schedule.
     Lockheed’s award fee plan states that


     13
          Orion’s engineering process is documented in CxP 72088, “Crew Exploration Vehicle, Systems
          Engineering Management Plan,” November 8, 2006, and Revision A, July 10, 2007.
     14
          NASA OIG, “Acquisition of the Space Station Propulsion Module” (IG-01-027, May 21, 2001).
     15
          The total potential award fee was $XX.X million. However, NASA only pays up to 80 percent of the
          maximum potential award until the end of the contract when any adjustments may be calculated and
          applied.



12                                                                                    REPORT NO. IG-09-004
RESULTS



             Each award fee period will be based on objective project milestones identified in this
             plan and contract schedule. Each Interim award fee period and provisional payment
             is based on the Contractor’s successful completion of the milestone(s) agreed to and
             as identified in the Contractor’s Integrated Master Schedule. The award fee
             distribution table contained in Enclosure II, Performance Milestones, provides a list
             of performance milestones and available provisional fee for each milestone.

  Enclosure II of the award fee plan specified that the SDR would be held by August 31,
  2007. If the Project Office had delayed the SDR until the 607 vehicle configuration
  activity was completed, NASA would have been required to modify Lockheed’s award
  fee plan to compensate for the SDR slippage past August 31, 2007. However, the
  Project’s SDR Board met on August 30, 2007, and declared the SDR “successful” despite
  performing the review on a vehicle configuration that did not meet CxP requirements. In
  its self-evaluation for the award fee milestone, Lockheed stated that the SDR was
  successful. The contracting officer’s technical representative’s16 September 27, 2007,
  presentation to the award fee evaluation board confirmed that an activity for this award
  fee period was to conduct the SDR Board on August 30, 2007. Based on these and other
  presentations, on September 27, 2007, the award fee evaluation board graded Lockheed’s
  performance as excellent,17 which resulted in Lockheed receiving the maximum award
  fee available.


Conclusion

  History has demonstrated that NASA has had difficulty bringing a number of projects to
  completion including building a next-generation spacecraft. Since the 1980s, NASA has
  unsuccessfully attempted several development efforts estimated to have cost
  approximately $4.8 billion (National Aero-Space Plane, X-33, X-34, and Space Launch
  Initiative). In July 2006, GAO reported concern about NASA’s acquisition strategy for
  Orion.18 GAO stated that NASA’s strategy of awarding a long-term contract for design,
  development, production, and sustainment before developing a sound business case19
  placed the Orion Project at risk of significant cost overruns, schedule delays, and
  performance shortfalls.

  In October 2007, GAO reported that NASA had been taking steps to build a business
  case for the Ares I Crew Launch Vehicle Project,20 to demonstrate that the project was
  16
       The contracting officer’s technical representative supports the contracting officer through surveillance of
       the contractor’s performance and provides overall technical management of the contract.
  17
       Award fee evaluation scoring follows standard adjectival ratings. The score of “excellent” is defined as
       “of exceptional merit; exemplary performance in a timely, efficient, and economical manner; very minor
       (if any) deficiencies with no adverse effect on overall performance.”
  18
       GAO, “NASA: Long-Term Commitment to and Investment in Space Exploration Program Requires
       More Knowledge” (GAO-06-817R, July 17, 2006).
  19
       GAO defines a sound business case as one in which requirements match available and reasonably
       expected resources before committing to a new product development effort.
  20
       The Ares I Crew Launch Vehicle is being designed to launch the Orion into space.


REPORT NO. IG-09-004                                                                                                 13
                                                                                                      RESULTS



     achievable within the constraints of time, money, and other resources but noted gaps in
     knowledge about requirements, costs, schedule, technology, design, and production
     feasibility. GAO stated that while NASA still had 10 months under its own schedule to
     close gaps in the development of the Ares I system, the gaps GAO identified were
     significant and challenging given the complexity and interdependencies in the CxP. For
     example, continued instability in the design of Orion hampers the Ares I Project’s efforts
     to establish firm requirements.21

     In April 2008, GAO testified that while NASA was working toward PDR for Ares I and
     Orion, there are considerable unknowns as to whether NASA’s plans could be executed
     within schedule and cost goals. This was because NASA was still in the process of
     defining many performance requirements that could affect the mass, loads, and weight
     requirements. GAO stated that NASA was aiming to complete this process in 2008, but
     the Agency would be challenged to do so with the level of knowledge that still needed to
     be attained. GAO also indicated that NASA recognized the risks involved with its
     approach and had taken steps to mitigate some of these risks.22

     In response to the multiple GAO reports, NASA revised its acquisition policy in 2005
     and again in 2007. The policy revisions were a positive step in improving NASA’s
     ability to complete its programs and projects within cost, schedule, and performance
     parameters. However, implementation of those revisions created its own challenges
     because it fundamentally changed NASA’s approach to acquisition. For example,
     personnel within the Exploration Systems Mission Directorate had to balance the need to
     timely develop new space vehicles with the discipline necessary to follow and comply
     with the revised guidance.

     The purpose of the life-cycle approach to project acquisition is to develop the maturity of
     a project to a satisfactory degree before proceeding to the next life-cycle phase of
     development. This process is important to assure the project is ready for additional
     investment and to signal readiness for new and more advanced development. Reviews
     are incorporated in each life cycle to assure readiness to proceed to the next phase.

     This acquisition methodology is materially undermined when the review process is
     engaged when material challenges and questions with the current stage, or its design, are
     substantially unresolved. First, without resolution of questions that are fundamental to
     the life cycle’s phase of maturity, conducting a review is inherently untimely and
     wasteful of effort. Second, it denies the project of the life-cycle review necessary and
     appropriate when the project achieves the maturity level at which it should be reviewed.



     21
          GAO, “Agency Has Taken Steps Toward Making Sound Investment Decisions for Ares I but Still Faces
          Challenging Knowledge Gaps” (GAO-08-51, October 31, 2007).
     22
          GAO, Ares I and Orion Project Risks and Key Indicators to Measure Progress” (GAO-08-186T, April 3,
          2008).



14                                                                                    REPORT NO. IG-09-004
RESULTS



  NASA has a unique opportunity to improve its processes concurrently with the
  acquisition of new space vehicles. However, successful implementation of those
  processes will depend on management’s commitment to change and its ability to
  encourage compliance by all personnel in the acquisition process.

  The Orion Project Office believed its strategy of the parallel POD activity ultimately
  addressed the NPR 7120.5D life-cycle review requirements with the least expenditure of
  Agency resources. However, by not delaying the SDR in order to review the proper
  vehicle configuration, a significant portion of Orion requirements did not go through the
  SDR RID process. Although the SDR process and life-cycle reviews are designed to find
  and correct discrepancies, the process cannot be expected to work as designed if a
  significant portion of the requirements do not go through that process. In addition, the
  project risks the untimely identification of discrepancies in Phase B that should have
  been identified earlier in the Phase A reviews. NASA needs to ensure that the vehicle
  configuration and requirements are at the proper maturity level prior to starting and
  completing future life-cycle milestones. By not doing so, there is increased risk of costly
  rework and schedule slippage.


Management Action

  The Orion Project Office’s effort in recognizing and correcting significant deficiencies in
  the vehicle configuration deserves special consideration. After the SDR, the Project
  Office correctly delayed the planned Phase B timeline because the SDR vehicle
  configuration was not ready and the Project had not made sufficient progress on meeting
  design changes adopted from the POD activity (see Figure 2).

  Figure 2. SDR and Changes to Planned Phase B Timeline

                                     2007                                           2008
   Event                     Apr Ma Jun Jul Aug Sep Oct NovDec Jan Feb Mar Apr May Jun Jul Aug Sep Oct NovDec Jan
   SDR                                7/11           8/30

   Award Fee Paid                                      9/27

   POD Activity                 6/8                             11/15

   Project Briefing to SRB                            12/6

   SRB Report Issued                         10/01     114 Day Slip       1/23

   PNAR Completion                           10/15          **** 197 Day Slip ****      4/29

   PDR Board                                                                     5/16     **** 189 Day Slip ****   11/21


  With the extension, the SRB provided a report on January 23, 2008, instead of
  October 2007, the conclusion of the PNAR slipped from October 2007 to April 2008, and
  Orion’s PDR Board, originally scheduled for May 2008, has slipped twice from
  September 2008 to November 2008. The Project Office is considering an additional


REPORT NO. IG-09-004                                                                                                       15
                                                                                           RESULTS



     delay for the PDR to 2009. In anticipation of the PDR slip to 2009, NASA extended the
     second performance milestone of the award fee plan, which requires that Phase B’s PDR
     Board be held by May 31, 2009. NASA needs to continue to adjust milestones and the
     contract as needed and avoid performing future life-cycle reviews prematurely.

Recommendations, Management’s Response, and Evaluation of
  Management’s Response

Recommendation 1. The Chief Engineer should revise NPR 7123.1A’s internal life-cycle
reviews’ entrance criteria to require the project to update the life-cycle review’s technical
products with known changes to the technical baseline resulting from engineering analysis
cycle assessments.

     Management’s Response. The Chief Engineer nonconcurred, stating that while the
     intent of the recommendation is understood, the actual events show that the current
     policy is effective. He stated that the members of the Agency Program Management
     Council reviewed the results of the Orion SDR and the PNAR and determined that the
     SDR/PNAR milestone was successfully completed. In addition, Management approved
     the strategy of executing the SDR activities in parallel with the “Point of Departure”
     review to fully inform the Agency decision process and ensure a sound basis for
     beginning Phase B. The Chief Engineer also stated that there is no technical baseline of
     the design at this point in the life cycle. Trade studies, technology maturation, etc. are
     still occurring such that by the PDR, a preliminary design is in place that meets all
     system requirements.

     Evaluation of Management’s Response. Management’s comments are nonresponsive.
     We disagree that the actual events show that the current policy is effective. We believe
     that the policy allowed the Orion Project Office to prematurely hold the SDR on a
     vehicle configuration that did not meet known requirements and therefore, would not
     meet the review’s success criteria.

     Although we agree that there may not be a technical baseline for the actual design
     available at the SDR, NASA’s guidance explains that the Project is developing the
     technical baseline during the life cycle phase. As stated in our report and in
     NPR 7123.1A, life-cycle reviews “...occur based on maturity of the relevant technical
     baseline as opposed to calendar milestones.…” If the SDR had disclosed the mass and
     weight discrepancies with the 606 vehicle configuration, then the 606 vehicle would
     probably have been the relevant technical baseline. However, the 606 vehicle
     configuration was not the relevant technical baseline because discrepancies were revealed
     by the DAC conducted prior to the SDR. The Orion Project Office knew that the
     606 vehicle was not the relevant technical baseline and therefore, the SDR should have
     been delayed.

     The Agency has acted in a prudent manner during Phase B and provides further support
     for the implementation of our recommendation. The pre-PDR DACs continue to show


16                                                                          REPORT NO. IG-09-004
RESULTS



   the vehicle configuration’s technical baseline is not at the PDR maturity level. As a
   result, the Project has delayed its PDR on two different occasions, and is considering
   delaying the PDR a third time, to ensure that the Project reviews the relevant technical
   baseline. However, without the Agency taking the necessary step to revise NPR 7123.1A
   to require that technical products incorporate known changes resulting from analysis
   cycles, there is a risk that life-cycle reviews could again be performed on premature
   configurations. Therefore, we request that the Chief Engineer reconsider his position and
   provide additional comments with regard to requiring projects to update the life-cycle
   review’s technical products with known changes to the technical baseline resulting from
   engineering analysis cycle assessments.

Recommendation 2.a. The Associate Administrator for Exploration Systems Mission
Directorate should evaluate the 607 vehicle configuration for assurance that it was assessed
at a minimum of the SDR level and, if not, determine the impact for any affected systems
and, if material, perform an SDR on that part.

   Management’s Response. The Associate Administrator for Exploration Systems
   Mission Directorate nonconcurred, stating that no additional review is warranted. He
   stated that the configuration changes involved extensive participation and review by the
   entire community of technical subject matter experts and stakeholders from across the
   Agency. In addition, the community assessed the results against the SDR success criteria
   and identified actions to revise requirements, risks, etc. The Orion Project reviewed the
   607 vehicle configuration with the CxP, the Exploration Systems Mission Directorate,
   the Agency independent technical authorities, the Standing Review Board, and the
   Administrator. The Orion Project and the Standing Review Board presented the results at
   the Key Decision Point B meeting in April 2008. The Associate Administrator also
   stated, as noted in the OIG report, that NASA did not begin Phase B tasks until the
   607 configuration was defined.

   Evaluation of Management’s Response. Although the Associate Administrator
   nonconcurred, his comments are responsive to the intent of our recommendation. In his
   response, the Associate Administrator stated that the Agency is in strong agreement that
   adhering to the discipline of the life-cycle development approach is vital and that the
   purpose of any life-cycle review is to provide complete and objective information to
   Agency management. The Associate Administrator also stated that the 607 vehicle
   configuration that proceeded to Phase B was extensively reviewed by the Project, CxP,
   Exploration Systems Mission Directorate, independent technical authorities, and the
   Standing Review Board who all came to the conclusion to proceed to Phase B.

   Although the 607 vehicle configuration did not proceed through a formal SDR process,
   namely the configuration did not benefit from the rigors of the RID process, we agree
   that the configuration changes were eventually reviewed by technical subject matter
   experts and Agency stakeholders. Furthermore, the Agency has delayed the PDR
   because the known technical baseline changes are not at the proper maturity level and



REPORT NO. IG-09-004                                                                           17
                                                                                        RESULTS



     those changes will obtain the full rigors of the PDR process. Therefore, we consider the
     recommendation resolved and closed.

Recommendation 2.b. The Associate Administrator for Exploration Systems Mission
Directorate should ensure that the contractor receives future award fees based on achieving
the expected technological maturity level required at a particular milestone as opposed to
convening and prematurely conducting a scheduled review at that milestone.

     Management’s Response. The Associate Administrator for Exploration Systems
     Mission Directorate concurred stating that NASA acted in accordance with the
     recommendation in the case of the first Orion award fee period. He stated that the award
     fee period associated with this milestone had no bearing on scheduling the SDR review
     or in the technical evaluation of the SDR products. The award fee approach for Orion
     was successful in that the evaluation took place at a logical point in development of
     products at the end of a DAC. Based on the quality of the delivered products, the
     performance of the contractor was assessed for all activities in that period against the
     established criteria. A weakness was included for the first award fee period relative to
     the contractor’s inability to adequately manage and track mass through DAC-1. This was
     a clear indicator the contractor was not meeting technical or management maturity
     expectations at that time. NASA has extended award fee period two in order to
     accommodate programmatic changes and to assure the period maintains the original
     intent, which is to evaluate expected performance and maturity to be demonstrated at the
     Pad Abort 1 test and the PDR milestones.

     Evaluation of Management’s Response. The Associate Administrator’s comments are
     generally responsive to our recommendation. Although we were able to verify that a
     weakness was noted for the contractor’s inability to adequately manage and track mass,
     we disagree that NASA acted in accordance with the recommendation during award fee
     period one in that the SDR did not review the appropriate vehicle configuration nor meet
     the SDR success criteria. However, the actions taken during award fee period two
     demonstrate that NASA has acted in accordance with the intent of our recommendation
     by adjusting the milestone period to coincide with the delayed PDR. Therefore, we
     consider the recommendation resolved and closed.




18                                                                        REPORT NO. IG-09-004
APPENDIXES




                                                                          APPENDIX A


Scope and Methodology

  We performed this audit from June 2007 through October 2008 in accordance with
  generally accepted government auditing standards. Those standards require that we plan
  and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
  basis for our findings and conclusions based on our audit objectives. We believe that the
  evidence obtained provides a reasonable basis for our findings and conclusions based on
  our audit objectives. We performed audit fieldwork at NASA Headquarters and Johnson
  Space Center (Johnson).

  To assess the effectiveness of NASA’s Orion acquisition management, we reviewed and
  analyzed NASA’s efforts to transition Orion from the “Concept and Technology
  Development” phase (Phase A) to the “Preliminary Design and Technology Completion”
  phase (Phase B). We focused on Phase A’s life-cycle processes to include the SRR,
  SDR, and PNAR. We also reviewed internal controls as they related to the overall
  objective. We issued a report related to the audit objectives that concerned the
  establishment and operation of the SRB.

  During our pre-audit planning, the Project Office allowed us to observe the SRR process
  at Johnson. We observed the SRR, in March 2007, and the SDR in August 2007. We
  also attended the Project Office’s SDR/PNAR briefings to the SRB in December 2007
  and the SRB’s out-briefing to the Integrated Center Management Council in
  February 2008.

  We interviewed personnel from the Exploration Systems Mission Directorate, CxP, and
  the Project Office at NASA Headquarters and Johnson to discuss the overall process used
  in the acquisition of Orion. We also interviewed:

      •   NASA Headquarters officials from the Office of the Chief Engineer responsible
          for the policy and guidance. We discussed their approach in updating NPRs 7120
          and 7123 and the entrance and success criteria used during the SRR and SDR
          milestone reviews.

      •   Engineering, Safety and Mission Assurance, and Health and Medical, Technical
          Authorities that are matrixed to the Orion Project to discuss their processes of
          ensuring visibility and timely communications within the Project Office and to
          understand their role in the SRR and SDR milestone reviews.

      •   Johnson contracting officials to discuss the development and selection of the
          prime contractor for Orion and the evaluation of the contractor award fees.


REPORT NO. IG-09-004                                                                          19
                                                                                    APPENDIX A



        •   Orion Project Officials to discuss the flow down of the requirements from CxP to
            Lockheed for functional elements and subsystems.

     In addition to reviewing NPR 7120.5D, “NASA Space Flight Program and Project
     Management Requirements,” March 6, 2007, and NPR 7123.1A, “NASA Systems
     Engineering Processes and Requirements,” March 26, 2007, we also reviewed
     NASA Policy Directive 1000.0, “Strategic Management Governance Handbook,”
     August 30, 2005; NPR 7123.1, “NASA Systems Engineering Processes and
     Requirements,” March 13, 2006; and “Program and Project Formulation Document,”
     July 7, 2006.

     We also reviewed other documents concerning the management and development of
     Orion:

        •   CxP 70003, “Constellation Program Plan,” September 28, 2006;

        •   CxP 70006, “Constellation Program, Crew Exploration Vehicle SRR Process
            Plan,” Revision A, Change 001, May 17, 2007;

        •   CxP 70006, Annex 2.2, “Constellation Program, Crew Exploration Vehicle SRR
            Process Plan,” Revision A, Change 001, May 17, 2007;

        •   CxP 70016, “Constellation Program Requirements Management Plan,” Change
            1, May 17, 2007;

        •   CxP 72008, “Crew Exploration Vehicle Project Plan,” Draft, Draft Maturity
            (80%), December 18, 2006;

        •   CxP 72088, “Crew Exploration Vehicle, Systems Engineering Management
            Plan,” November 8, 2006 and Revision A, July 10, 2007;

        •   CxP 72091, “Crew Exploration Vehicle Risk Management Plan,” September 18,
            2006;

        •   CxP 72097, “Crew Exploration Vehicle Master Verification Plan,” March 1,
            2007; and

        •   CxP 72107, “Crew Exploration Vehicle, System Definition Review, Process
            Plan,” June 22, 2007.

     Further, we reviewed internal and external reports and documents relating to Orion
     Project management:

        •   Report of the Commission on the Implementation of U.S. Space Exploration
            Policy, “A Journey to Inspire, Innovate, and Discover” June 2004;



20                                                                        REPORT NO. IG-09-004
APPENDIX A



      •   “NASA Exploration Systems Architecture Study,” November 2005;

      •   “NASA Award Fee Process,” November 1, 2006;

      •   ZV-07-005, “Preliminary Design Review Point of Departure Definition Activity,”
          June 8, 2007;

      •   “SRR Review Item Discrepancy Database,” as of August 3, 2007;

      •   “CEV Contract Award Fee Evaluation Plan,” August 27, 2007; and

      •   “SRR Action Closeout Summary,” as of September 10, 2007.

  Computer-Processed Data. We did not perform a detailed assessment on the reliability
  and validity of the SRR Review Item Discrepancy (RID) database or the SRR Action
  Closeout Summary Report. We used the database to verify that all RIDS were
  dispositioned and to reconcile differences between the database and the RIDs the Project
  reported as reviewed. However, we did not verify that the database was all-inclusive.
  We used the Action Closeout Report to verify that all actions assigned to responsible
  parties had been dispositioned, but we did not verify that the report included every action.
  However, changes in the number of RIDs in the database or actions in the report would
  not change our conclusions or recommendations.


Review of Internal Controls

  We reviewed the internal controls associated with project life-cycle management. The
  Project Office performed the required assessments for the SRR and the SDR to determine
  if Orion was ready to proceed to the next life-cycle phase. Additionally, the SRB
  assessed the life-cycle reviews. However, the Project Office proceeded through the SDR
  milestone knowing that the vehicle configuration was not at the appropriate maturity
  level. Until the Project can provide assurance that the appropriate vehicle design is the
  one reviewed, we cannot place full reliance on the life-cycle processes. We discussed the
  internal control deficiency within the body of this report. Implementing the
  recommendation in this report should improve the internal controls over life-cycle project
  management.


Prior Coverage

  During the last 6 years, GAO and the NASA Office of Inspector General have issued
  five reports on NASA’s acquisition process. Unrestricted reports can be accessed over
  the Internet at http://www.gao.gov (GAO) and
  http://www.hq.nasa.gov/office/oig/hq/audits/reports/FY07/index.html (NASA).



REPORT NO. IG-09-004                                                                             21
                                                                                      APPENDIX A



     Government Accountability Office

     “Ares I and Orion Project Risks and Key Indicators to Measure Progress”
     (GAO-08-186T, April 3, 2008)

         The report discussed challenges NASA is facing in developing the systems to
         achieve its goals for the President’s Vision for Space Exploration. The report
         focused on the Ares I Crew Launch Vehicle and the Orion because NASA is
         currently working toward PDR. The report states that there are considerable
         unknowns as to whether NASA’s plans for these vehicles can be executed within
         cost and schedule. NASA is still in the process of defining many performance
         requirements and such uncertainties could affect the mass, loads, and weight
         requirements for the vehicles. The upcoming PDR represents the most critical
         juncture where hard decisions can be made as to whether the programs should
         proceed forward.

     “Agency Has Taken Steps Toward Making Sound Investment Decisions for Ares I but
     Still Faces Challenging Knowledge Gaps” (GAO-08-051, October 31, 2007)

        The report, which discusses NASA’s efforts to implement the President’s plan to
        return humans to the moon and prepare for eventual human space flight to Mars, is
        the development of the Ares I Crew Launch Vehicle. NASA plans to conduct the
        first human space flight in 2015. The report also states that the agency is seeking to
        speed development efforts in order to reduce the gap in our nation’s ability to provide
        human access to space caused by the Space Shuttle’s retirement in 2010. There are
        gaps in knowledge about requirements, costs, schedule, technology, design, and
        production feasibility. These gaps are significant and challenging given the
        complexity and interdependencies in the program.

     “NASA: Long-Term Commitment to and Investment in Space Exploration Program
     Requires More Knowledge” (GAO-06-817R, July 17, 2006)

        The report, which discusses NASA’s status on implementing the President’s Vision
        for Space Exploration, states that although NASA is continuing to refine its
        exploration architecture cost estimates, the Agency cannot provide a firm estimate of
        what it will take to implement the architecture. In addition, the report states that
        NASA will be challenged to implement the exploration architecture with its projected
        budget. The report also discusses NASA’s acquisition strategy for the Crew
        Exploration Vehicle and states the strategy places the Project at risk for cost
        overruns, schedule delays, and performance shortfalls.

     “NASA-Implementing a Knowledge-Based Acquisition Framework Could Lead to Better
     Investment Decisions and Project Outcomes” (GAO-06-218, December 21, 2005)

        The report discusses NASA’s revised policy for developing flight systems and ground
        support projects incorporates some of the best practices used by successful


22                                                                         REPORT NO. IG-09-004
APPENDIX A



      developers. By not establishing a minimum threshold for technology maturity,
      NASA increases the risk that design changes will be required later in development,
      when such changes are typically more costly to make. In addition, although NASA’s
      policy does require project managers to establish a continuum of technical and
      management reviews, it does not specify what these reviews should be, nor does it
      require major decision reviews at other key points in a product’s development.
      Acquiring knowledge at key junctures will become increasingly important as NASA
      proceeds to implement elements of the Vision. Without a major decision review at
      key milestones to ensure that the appropriate level of knowledge has been achieved to
      proceed to the next phase, the risk of cost and schedule overruns, as well as
      performance shortfalls, increases.

  National Aeronautics and Space Administration Office of Inspector General

  “Acquisition of the Space Station Propulsion Module” (IG-01-027, May 21, 2001)

  The report, which discusses the Acquisition of the Space Station Propulsion Module,
  states the Propulsion Module was not cost effective. In addition, NASA implemented the
  United States Propulsion Module design before properly accomplishing acquisition
  planning and preparing project documents. Specifically, NASA did not validate
  requirements from the SRR before beginning a PDR of the propulsion module; Agency
  pursued implementation of the propulsion system without an approved project plan or
  risk management plan; and NASA selected The Boeing Company as the sole-source
  contractor without properly documenting the justification for the noncompetitive
  selection.




REPORT NO. IG-09-004                                                                          23
                                                                                     APPENDIX B




                                                  LIFE CYCLE OF A NASA SPACE
                                                              FLIGHT PROJECT


     The following figure shows the complete life cycle of a NASA space flight project. Our
     audit of the Orion Project focused primarily on Phases A and B of the life cycle.




                                                                Source: NPR 7120.5D (figure 2-4)

     Acronyms
     FAD      Formulation Authorization Document
     KDP      Key Decision Point (for the Orion, KDP B was held on April 29, 2008)
     NAR      Non-Advocate Review
     PDR      Preliminary Design Review
     PNAR     Preliminary Non-Advocate Review (for Orion, completion of the
                PNAR was April 29, 2008)
     SDR      System Definition Review
     SRR      System Requirements Review




24                                                                        REPORT NO. IG-09-004
APPENDIX C




                                                   SYSTEM REQUIREMENTS REVIEW
                                                            ENTRANCE/SUCCESS
                                                                     CRITERIA


                                            System Requirements Review
                           Entrance Criteria                                         Success Criteria
  1.   Successful completion of the MCR and responses made to all        1. The project utilizes a sound process
       MCR Requests for Actions (RFAs) and Review Item                       for the allocation and control of
       Discrepancies (RIDs).                                                 requirements throughout all levels,
  2.   A preliminary SRR agenda, success criteria, and charge to the         and a plan has been defined to
       board have been agreed to by the technical team, project              complete the definition activity
       manager, and review chair prior to the SRR.                           within schedule constraints.
  3.   The following technical products for hardware and software        2. Requirements definition is complete
       system elements are available to the cognizant participants prior     with respect to top-level mission
       to the review:                                                        and science requirements, and
       a. system requirements document;                                      interfaces with external entities and
       b. system software functionality description;                         between major internal elements
       c. updated concept of operations;                                     have been defined.
       d. updated mission requirements, if applicable;                   3. Requirements allocation and flow
       e. baselined SEMP;                                                    down of key driving requirements
       f. risk management plan;                                              have been defined down to
       g. preliminary system requirements allocation to the next lower       subsystems.
            level system;                                                4. Preliminary approaches have been
       h. updated cost estimate;                                             determined for how requirements
       i. Technology Development Maturity Assessment Plan;                   will be verified and validated down
       j. updated risk assessment and mitigations (including PRA as          to the subsystem level.
            applicable).                                                 5. Major risks have been identified
       k. logistics documentation (e.g., preliminary maintenance plan);      and technically assessed, and viable
       l. preliminary human rating plan, if applicable;                      mitigation strategies have been
       m. Software Development Plan (SDP);                                   defined.
       n. system safety and mission assurance plan;
       o. configuration management plan;
       p. initial document tree;
       q. verification and validation approach;
       r. preliminary system safety analysis; and
       s. other specialty disciplines, as required.
                                                                         Source: NPR 7123.1A (Table G-4)

  The SRR examines the functional and performance requirements defined for the system
  and the preliminary program or project plan and ensures that the requirements and the
  selected concept will satisfy the mission.




REPORT NO. IG-09-004                                                                                         25
                                                                                                     APPENDIX D




                                                          SYSTEM DEFINITION REVIEW
                                                                 ENTRANCE/SUCCESS
                                                                          CRITERIA


                                              System Definition Review
                         Entrance Criteria                                           Success Criteria
1.    Successful completion of the SRR and responses made to       1.    Systems requirements, including mission
      all SRR RFAs and RIDs.                                             success criteria and any sponsor-imposed
2.    A preliminary SDR agenda, success criteria, and charge to          constraints, are defined and form the
      the board have been agreed to by the technical team, project       basis for the proposed conceptual design.
      manager, and review chair prior to the SDR.                  2.    All technical requirements are allocated
3.    SDR technical products listed below for both hardware and          and the flow down to subsystems is
      software system elements have been made available to the           adequate. The requirements, design
      cognizant participants prior to the review:                        approaches, and conceptual design will
      a. system architecture;                                            fulfill the mission needs consistent with
      b. preferred system solution definition including major            the available resources (cost, schedule,
           tradeoffs and options;                                        mass, and power).
      c. updated baselined documentation, as required;             3.    The requirements process is sound and
      d. preliminary functional baseline (with supporting trade-         can reasonably be expected to continue to
           off analyses and data);                                       identify and flow detailed requirements in
      e. preliminary system software functional requirements;            a manner timely for development.
      f. SEMP changes, if any;                                     4.    The technical approach is credible and
      g. updated risk management plan;                                   responsive to the identified requirements.
      h. updated risk assessment and mitigations (including        5.    Technical plans have been updated, as
           PRA, as applicable);                                          necessary.
      i. updated technology development, maturity, and             6.    The tradeoffs are completed, and those
           assessment plan;                                              planned for Phase B adequately address
      j. updated cost and schedule data;                                 the option space.
      k. updated logistics documentation;                          7.    Significant development, mission, and
      l. based on system complexity, updated human rating                safety risks are identified and technically
           plan;                                                         assessed, and a process and resources
      m. software test plan;                                             exist to manage the risks.
      n. software requirements document(s);                        8.    Adequate planning exists for the
      o. interface requirements documents (including software);          development of any enabling new
      p. technical resource utilization estimates and margins;           technology.
      q. updated safety and mission assurance (S&MA) plan;         9.    The operations concept is consistent with
           and                                                           proposed design concept(s) and is in
      r. updated preliminary safety analysis.                            alignment with the mission requirements.
                                                                              Source: NPR 7123.1A (Table G-6)

     The SDR examines the proposed system architecture and design and the flow down to all
     functional elements of the system.




26                                                                                      REPORT NO. IG-09-004
APPENDIX E




                                                       ORION’S ANALYSIS CYCLES
                                                           PERFORMED BETWEEN
                                                           LIFE-CYCLE REVIEWS




             Source: CxP 72088, “Crew Exploration Systems Engineering Management Plan,” Figure 5.4-1

  Orion’s integrated analysis reviews comprise three major analysis cycles that
  progressively support definition, design, verification, and readiness, through the
  operational readiness review.

  Analysis Cycle Acronyms/Definitions

  RAC Requirements Analysis Cycle - Supports the analysis and trades performed early
      in the life cycle to develop and validate technical requirements.
  DAC Design Analysis Cycle - Directly supports achievement of the goals of the next
      design review including the SDR, PDR, and CDR (Critical Design Review).
  VAC Verification Analysis Cycle - Supports the achievement of overall readiness in
      time for the ORR (Operational Readiness Review).




REPORT NO. IG-09-004                                                                                   27
                            APPENDIX F




     PRELIMINARY DESIGN REVIEW
            DEFINITION ACTIVITY
                  MEMORANDUM




28                 REPORT NO. IG-09-004
APPENDIX F




REPORT NO. IG-09-004   29
              APPENDIX F




30   REPORT NO. IG-09-004
APPENDIX F




REPORT NO. IG-09-004   31
              APPENDIX F




32   REPORT NO. IG-09-004
APPENDIX G




                       MANAGEMENT COMMENTS




REPORT NO. IG-09-004                         33
              APPENDIX G




34   REPORT NO. IG-09-004
APPENDIX G




REPORT NO. IG-09-004   35
              APPENDIX G




36   REPORT NO. IG-09-004
APPENDIX H




                                                       REPORT DISTRIBUTION

National Aeronautics and Space Administration

  Administrator
  Deputy Administrator
  Chief of Staff
  Chief Engineer
  Associate Administrator for Explorations Systems Mission Directorate
  Constellation Program Manager
  Orion Project Manager

Non-NASA Organizations and Individuals

  Office of Management and Budget
     Deputy Associate Director, Energy and Science Division
         Branch Chief, Science and Space Programs Branch
  Government Accountability Office
     Director, Defense, State, and NASA Financial Management, Office of Financial
        Management and Assurance
     Director, NASA Issues, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

  Senate Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  Senate Committee on Commerce, Science, and Transportation
     Subcommittee on Space, Aeronautics, and Related Sciences
  Senate Committee on Homeland Security and Governmental Affairs
  House Committee on Appropriations
     Subcommittee on Commerce, Justice, Science, and Related Agencies
  House Committee on Oversight and Government Reform
     Subcommittee on Government Management, Organization, and Procurement
  House Committee on Science and Technology
     Subcommittee on Investigations and Oversight
     Subcommittee on Space and Aeronautics




REPORT NO. IG-09-004                                                                37
Major Contributors to the Report:
   Carol Gorman, Director, Space Operations and Exploration Directorate
   Ray Tolomeo, Director, Mission Programs and Projects
   Loretta Atkinson, Project Manager
   Jim Griggs, Team Lead
   Douglas Orton, Team Lead
   Barbara Moody, Auditor
   Eugene Bauer, Auditor
   Frank Martin, Aerospace Technologist
   Cindy Stein, Aerospace Technologist
   Janet Overton, Report Process Manager




REPORT NO. IG-09-004                                                      39
                                                                                 OCTOBER 31, 2008
                                                                      REPORT No. IG-09-004




                                                                               OFFICE OF AUDITS

                                                               OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY09 to obtain additional copies of this report, or contact the
Assistant Inspector General for Auditing at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Ms. Jacqueline White, Director of Special
Projects and Quality Assurance, at Jacqueline.White@nasa.gov or call 202-358-0203.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Auditing.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Auditing
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
